Department of Homeland Security
   Ofﬁce of Inspector General

            Stronger Security Controls Needed on 

                  Active Directory Systems 





OIG-10-86                                            May 2010
                                                            Office (!{ Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     MAY 1 0 2010

                                         Preface

The Department of Homeland Security (DHS), Office of Inspector General, was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS' management of its
implementation of Active Directory. It is based on interviews with selected officials and
contractor personnel, direct observations, technical security vulnerability assessments,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparatiop of this report.

                                     yt'~c:f.. ~
                                     Richard L. Skinner
                                     Inspector General
Table of Contents/Abbreviations 

Executive Summary ................................................................................................................1
 


Background .............................................................................................................................2
 


Results of Audit ......................................................................................................................3


    Vulnerable Systems Added to DHS Network....................................................................3 


    Governance Needed to Verify Security Requirements......................................................5 


    Recommendations..............................................................................................................6


    Management Comments and OIG Analysis ......................................................................6 


Appendixes
    Appendix A:          Purpose, Scope, and Methodology..............................................................8 

    Appendix B:          Management Comments to the Draft Report ..............................................9 

    Appendix C:          Major Contributors to This Report............................................................14 

    Appendix D:          Report Distribution....................................................................................15 


Abbreviations
     CBP                 Customs and Border Protection
     DHS                 Department of Homeland Security
     FEMA                Federal Emergency Management Agency
     HQ                  Headquarters
     ICE                 Immigration and Customs Enforcement
     ISA                 Interconnection Security Agreement
     OCIO                Office of Chief Information Officer
     OCS                 Office Communication Server
     OIG                 Office of Inspector General
     S&T                 Science and Technology (Directorate)
     TSA                 Transportation Security Administration
     USCIS               United States Citizenship and Immigration Services
     USCG                United States Coast Guard
     USSS                United States Secret Service
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Department of Homeland Security uses Microsoft Windows
                 Active Directory services to manage users, groups of users,
                 computer systems, and services on its headquarters network. We
                 reviewed the security of the Active Directory collection of
                 resources and services used by components across the department
                 through trusted connections. These resources and services provide
                 department-wide access to data that supports department missions
                 but require measures to ensure their confidentiality, integrity, and
                 availability. The servers that host these resources must maintain
                 the level of security mandated by department policy.

                 Systems within the headquarters’ enterprise Active Directory
                 domain are not fully compliant with the department’s security
                 guidelines, and no mechanism is in place to ensure their level of
                 security. These systems were added to the headquarters domain,
                 from trusted components, before their security configurations were
                 validated. Allowing systems with existing security vulnerabilities
                 into the headquarters domain puts department data at risk of
                 unauthorized access, removal, or destruction.

                 Also, the department does not have a policy to verify the quality of
                 security configuration on component systems that connect to
                 headquarters. Interconnection security agreements are present for
                 each connection between headquarters and components to secure
                 shared services; however, neither the agreements nor other policy
                 define specific security controls required for connecting systems.
                 Stronger management and technical controls are needed on trusted
                 systems to protect data provided by the department’s enterprise-
                 wide applications.

                 We are making three recommendations to the Office of Chief
                 Information Officer. The Office of Chief Information Officer
                 concurred with all recommendations and has already initiated
                 actions to implement them. The Office of Chief Information
                 Officer’s response is summarized and evaluated in the body of this
                 report and included, in its entirety, as Appendix B.

              Stronger Security Controls Needed on Active Directory Systems

                                         Page 1
Background
                         Active Directory provides authentication services on a network. It
                         allows system administrators to assign security policies, deploy
                         software, and apply critical software updates to the organization’s
                         Windows servers and workstations. Administrators organize
                         information technology resources into logical groups of computers
                         and users, or Active Directory domains, to facilitate security and
                         systems management.

                         Across the Department of Homeland Security (DHS), Active
                         Directory has been implemented under a federated model where
                         policy and guidance are centrally promulgated, but each
                         component is responsible for its own network operations. Major
                         components of DHS manage and control their own Active
                         Directory domains, each with their own users, groups,
                         workstations, and servers, and remain wholly separate from the
                         headquarters domain, as shown in Figure 1.1




                Figure 1. DHS’ Headquarters Active Directory Connections



1
 The following components have Active Directory connections with DHS headquarters: Customs and
Border Protection (CBP), Federal Emergency Management Agency (FEMA), Immigration and Customs
Enforcement (ICE), Office of Inspector General (OIG), Science and Technology (Directorate) (S&T),
Transportation Security Administration (TSA), United States Citizenship and Immigration Services
(USCIS), United States Coast Guard (USCG), and United States Secret Service (USSS).
                     Stronger Security Controls Needed on Active Directory Systems

                                                Page 2
                 Some programs, called enterprise applications, require access by
                 users from more than one component and are configured to cross
                 regular domain boundaries. Active Directory uses trusts, or logical
                 connections, to allow users to access information outside their
                 home domain without needing additional accounts on the external
                 domain.

                 DHS has established trusts between the headquarters domain and
                 nine other components’ domains to grant disparate users access to
                 centralized enterprise-wide applications. Some of the applications
                 are owned by components, while some are owned by DHS and
                 provided as a service to component users. For example, DHS
                 recently deployed Microsoft Office Communications Server (OCS)
                 on its headquarters domain. Users throughout the department access
                 OCS for virtual conferencing and collaboration.

                 In February 2007, the Secretary issued a policy on internal
                 information exchange and sharing intended to foster “one DHS.”
                 The policy envisions an information-sharing environment free of
                 unnecessary limitations or constraints. The policy also highlights
                 the need to ensure the integrity of ongoing operations and conduct
                 practices in a manner consistent with the law, including federal
                 privacy and information security requirements. DHS’ deployment
                 of enterprise applications on the headquarters domain shows
                 progress toward achieving a “one DHS” information-sharing
                 environment.

Results of Audit
     Vulnerable Systems Added to DHS Network
          DHS’ implementation of Active Directory provides security controls for its
          systems and users, but these controls can be circumvented. Specifically,
          DHS has allowed systems to be connected to its network and added to its
          domain through its trusts with other components that do not comply with
          published security policy. Further, trusted systems do not meet the level of
          security stipulated by service agreements. As a result, systems with
          vulnerabilities could allow unauthorized access and service disruption to the
          department’s critical enterprise applications.

          The security of Active Directory services comes from policy, the
          implementation of guidelines, and the use of written agreements to govern
          the connections. Failure to enforce policy and the poor quality of security
          configuration implementation on servers added to DHS’ headquarters
          domain from other components puts department data at risk.


              Stronger Security Controls Needed on Active Directory Systems

                                         Page 3
We reviewed servers in the enterprise application domain to determine the
level of compliance with published Active Directory security
configuration policy. Systems from CBP, ICE, and S&T contained
security vulnerabilities and do not have configuration controls specifically
identified within the DHS Sensitive Systems Policy Directive 4300A and
Handbook and the DHS Secure Baseline Configuration Guide for
Microsoft Windows. These vulnerabilities leave servers and,
consequently, the department’s headquarters domain and network at risk.

Examples of vulnerabilities include:

   �	   A default privileged account enabled on a Windows server
   �	   Missing security patches
   �	   Local password policy not set to DHS standards
   �	   A protocol in use that is specifically identified in DHS policy as
        vulnerable.

DHS 4300A outlines security controls that provide automated protection
against unauthorized access or misuse. DHS 4300A facilitates detection
of security violations and supports security requirements for applications
and data on DHS systems. The policy directive includes controls
specifying the local password policies, privileged account management,
and the requirement to apply security patches in a timely manner.
Additionally, DHS’ secure baseline configuration guides provide system
administrators with a set of procedures that will ensure a minimum
security baseline when installing or configuring a Microsoft Windows
server. Configuration settings within the Microsoft Windows server guide
directs administrators to refuse protocols that are currently in use on some
trusted systems.

While Active Directory provides security controls for systems and users,
these controls are not inherited by systems added to its enterprise
application domain. A basic tenet of information security is to apply
controls to systems that not only exist within a network, but to those that
connect to it as well. By accepting trusted systems from other components
without enforcing or confirming security controls, DHS exposes its
network to vulnerabilities contained on those systems. Risks associated
with these vulnerabilities include potential unauthorized access to data or
interruption of critical services to both DHS employees and the public.

Services that require enterprise-wide access need at least the same level of
security controls as those systems contained within components’ domains.
We determined, however, that component-owned systems hosted on the
headquarters domain are not fully compliant with DHS security policy.
Moreover, DHS does not ensure that trusted systems meet information
security requirements before allowing connectivity to its network.

    Stronger Security Controls Needed on Active Directory Systems

                               Page 4
     The current implementation of Active Directory does not have controls to
     secure the systems put in place to support the requirements of enterprise
     applications. Initially designed to support only headquarters, the current
     Active Directory structure is not optimized for supporting enterprise-wide
     applications. To secure the systems that are added, manual procedures
     and individual validations must be performed. These processes have not
     proven to be effective in maintaining the level of security required on
     DHS’ network. The department has recently undertaken efforts to better
     organize the department’s Active Directory security framework to better
     support enterprise applications and offer components more efficient access
     to critical data.

Governance Needed to Verify Security Requirements
     DHS has not established policy to enforce the implementation of security
     controls on component systems. Currently, DHS uses interconnection
     security agreements (ISA) to establish individual and organizational
     security responsibilities for the protection and handling of sensitive but
     unclassified information between DHS’ headquarters domain and the
     component domain. However, while the ISA documents in place for
     headquarters and components describe policy, they do not provide specific
     measures, such as audits or vulnerability assessments, for either party to
     validate security controls on connected systems and enforce any needed
     changes. As a result, the ISAs exist only as an agreement to adhere to
     DHS policy.

     DHS requires that an ISA identify roles and responsibilities for policy and
     guidance enforcement. An ISA should contain language to identify how
     security controls are implemented to protect the confidentiality, integrity,
     and availability of the data and systems being interconnected.

Conclusion
     Regardless of the approach DHS takes in moving forward with its Active
     Directory restructuring, security policy implementation and enforcement
     must be considered as an integral part of any project that could expose
     DHS systems and data to risk. While DHS continues to speed the
     deployment of state-of-the-art systems and strive for “one DHS” as
     directed by the Secretary, it cannot sacrifice the confidentiality, integrity,
     or availability of its data and services. DHS’ current Active Directory
     trusts pose risks and require stronger security controls in place to provide
     secure and effective enterprise services.




         Stronger Security Controls Needed on Active Directory Systems

                                    Page 5
Recommendations
We recommend that the Chief Information Officer:

Recommendation #1: Verify that security controls are implemented and
configuration settings are compliant with DHS policy on systems
connected or added to DHS’ Active Directory enterprise application
domain through trusts.

Recommendation #2: Address the current vulnerabilities on systems
connected to Active Directory.

Recommendation #3: Provide governance to ensure appropriate security
measures are taken for all systems.

Management Comments and OIG Analysis
The Office of Chief Information Officer (OCIO) concurred with
recommendation 1. The Active Directory Working Group will work with
the Security Policy Working Group of the Chief Information Security
Officers Council to develop guidance for Active Directory configurations.

We agree the steps that OCIO is taking, and plans to take, begin to satisfy
this recommendation. We consider this recommendation resolved and it
will remain open until OCIO provides documentation to support that all
planned corrective actions are completed.

The OCIO did not concur with recommendation 2 as written in the draft
report. The OCIO suggested revised recommendation language that it
believed would better address what the report is targeting. We agree with
OCIO and have revised some of the language as suggested. OCIO
concurs with revised recommendation 2, and is working to address the
vulnerabilities identified.

We agree the steps that OCIO is taking, and plans to take, begin to satisfy
this recommendation. We consider this recommendation resolved and it
will remain open until OCIO provides documentation to support that all
planned corrective actions are completed.

The OCIO did not concur with recommendation 3 as written in the draft
report. The OCIO suggested revised recommendation language and we
agreed to this change. OCIO concurs with revised recommendation 3, and
is taking corrective actions to address the deficiencies identified.

We agree the steps that OCIO is taking, and plans to take, begin to satisfy
this recommendation. We consider this recommendation resolved and it
    Stronger Security Controls Needed on Active Directory Systems

                               Page 6
will remain open until OCIO provides documentation to support that all
planned corrective actions are completed.

OCIO also provided technical comments on the report, and we have
incorporated these comments where appropriate.




    Stronger Security Controls Needed on Active Directory Systems 


                               Page 7 

Appendix A
Purpose, Scope, and Methodology


                   The objective of our review was to determine whether DHS has 

                   implemented effective security controls on its Active Directory 

                   domain. We conducted this performance audit between September 

                   2009 and January 2010 according to generally accepted 

                   government auditing standards. Those standards require that we 

                   plan and perform the audit to obtain sufficient, appropriate 

                   evidence to provide a reasonable basis for our findings and 

                   conclusions based on our audit objectives.
 


                   We believe that the evidence obtained provides a reasonable basis 

                   for our findings and conclusions based on our audit objectives.
 

                   Major OIG contributors to the audit are identified in Appendix C. 


                   The principal OIG points of contact for the evaluation are 

                   Frank Deffer, Assistant Inspector General, Information 

                   Technology Audits, at (202) 254-4041 and Chiu-Tong Tsang, 

                   Director, Information Security Audit Division, at (202) 254-5472. 





                Stronger Security Controls Needed on Active Directory Systems 


                                           Page 8 

Appendix B
Management Comments to the Draft Report



                                                                                 u.s. o.p.ortmc•• or 1I....boN s...rily
                                                                                 Woollingloo. r>c 20~2a




                                                                     t~ Homeland
                                                                     9           Security

                                                                                           March 29, 2010



          MEMORANDUM FOR:               FT'lInk DeITer
                                        Assistant Inspector Genera for IT Audits

          FROM:                         Richard A. Spires
                                        Chicf Infonnatit9 lcer

          SUBJECT:                      OIG Draft Response: "Stronger Security Controls Needcd on Active
                                        Directory"


          The Department of Homeland Security (OHS) Office of the Chief Information Officer (OCID) has
          initiated efforts to addrcss the findings orthe Office ofthc Inspector General Drall Report, "Stronger
          security Controls Nccded on Active Directory." The OCIO response to the OIG recommendations is
          as follows:

          Recommendation 1#1: Verify that security controls are implemented and configuration settings
          are compliant !vith DHS policy on systems connected or added to VHS' Active Directory
          enterprise application domain through trusts.

          oem Ma~h 2010 Response: OCIO concurs.             The Active Directory Working Group will work
          with the Security Policy Working Group ofthc Chief Infonnation Security Officers Council to
          provide guidance that will allow clear direction for Active Directory (AD) configurations.

          Recommcndation #2: Ensure that e.listing vulnerabilities on trusted systems are not c:ilrricd
          fonvard with lIny changes to the headquarters AClive Directory services.

          OCIO March 21)10 Response: OCIO docs nOI concur. The sCl;ond recommendation does not appear
          to address what the report is targeting. OCIO proposes the following language instead: "Ensure that
          current vulnerabililies are addressed and that processes, procedures and governance be instituted to
          ensure that DHS Enterprise Authentication services meet the mission needs."

          Recommendation #3: Revise tbe Intereonneelion Security Agreeooent (ISA) document to
          provide a mechanism for DUS to validate the secllrity controls and eonfiguration settings on
          srstems bcfo", tbey are conneeted or added to DHS' headquarters domain.

          oelo March 2010 Respon~e: aClo doc~ not concur. As part of the existing ISA, pursuanlto DHS
          4300A policies and as controlled by the Infrastructure Change Control Board (lCCB), all systems
          that interconnect with AppAuth must have an Authority to Operate (A TO). In addition, each system




                   Stronger Security Controls Needed on Active Directory Systems 


                                                   Page 9 

Appendix B
Management Comments to the Draft Report




          must have an Information Systems Security Officer who is personally responsible for ensuring that
          the systems meet the security requil'cments and providing that assurance on tbe change that connects
          the application to AppAuth.
          OCIO suggests that Recommendation #3 be rc:vi!ed to read: "Provide Govemaoce such that
          appropriate socurity measun:::!I arc taken for all systems."




                   Stronger Security Controls Needed on Active Directory Systems 


                                                   Page 10 

Appendix B
Management Comments to the Draft Report


In addition, OCIO also offers the following comments throughout the February 2010
report "Stronger Security Controls Needed on Active Directory Systems":

#   Draft Report Section         DHS Comment
1   P. 1, first paragraph, “In   The document refers to the issues within the Headquarters' Enterprise
    particular, we evaluated     Active Directory (AD). This language could be confusing since the
    the security of the Active   Headquarters has its own AD domain called "DHSnet" that supports the
    Directory collection of      DHS Headquarters Sensitive-but-Unclassified office automation
    enterprise resources and     network referred to as "LAN-A," which is separate from the DHS
    services used by             Enterprise Active Directory also known as "AppAuth." OCIO suggests
    components across the        using Enterprise Authentication or AppAuth to help keep the context
    department through           clear.
    trusted connections.”
                                 OIG: No change. For purposes of this report we do not believe it is
                                 necessary to define the Headquarters’ AD structure in terms of root
                                 and child domains.
2   P. 1, second paragraph,      OCIO agrees that AppAuth needs to be improved. In fact on December
    “Overall, systems within     16, 2009 the CIO/CISO community endorsed a general upgrade plan for
    the headquarters’            DHS. This plan is highlighted below:
    enterprise Active
    Directory domain are not     Major Milestone for AppAuth V2.0 (NextGen):
    fully compliant with the     • Establish AD Working Group - (completed)
    department’s security        • Determine how U.S. Coast Guard (USCG) and U.S. Secret Service
    guidelines, and no           (USSS) should integrate into AppAuth
    mechanism is in place to     • Implement Governance Model For AppAuth and Enterprise Federated
    ensure their level of        AD
    security.”                   • Create AppAuth Development and Test Environment
                                 • Upgrade all Enterprise facing DC's to 2008R2
                                 • Implement two way trust
                                 • Create resource forest for all ofDHS in AppAuth (dynamic entries)
                                 • Create tools to populate and maintain enterprise Forest in AppAuth
                                 • Obtain revised ATO for AppAuth NextGen

                                 This investment by DHS will provide the robust governance called for in
                                 the OIG draft report and improve integration and data sharing
                                 throughout the Department. DHS has already made improvements by
                                 eliminating Windows Server 2000 Domain Controllers in one
                                 Component's domain, which were unsupportable, by (1) obtaining
                                 improved hardware for AppAuth, (2) providing monitoring of the
                                 AppAuth communications and infrastructure, and (3) integrating USSS
                                 into the Trust.

                                 OIG: No change. We agree that the steps OCIO is taking will
                                 strengthen the controls implemented on AppAuth.
3   P. 1, third paragraph,       As identified and defined with the DHS 4300A security policy, ISAs are
    “…the interconnection        agreements on how connections between systems will be developed and
    security agreements          sustained. The ISA is not intended as the enforcement tool; but rather a
    between headquarters and     method for the stakeholders (the Approving Officials for the connecting
    components to properly       systems) to identify mutual areas of risk and the appropriate controls to
    secure their shared          mitigate those risks. Recognizing that the ISA is not the appropriate
    services, are current for    mechanism to address the items of concern as identified by the OIG, we
    each connection present,     suggest that DHS use its Governance processes that are being stood up

                      Stronger Security Controls Needed on Active Directory Systems 


                                                 Page 11 

Appendix B
Management Comments to the Draft Report


    but containing no           under the Information Technology Services Governance Board (ITSGB)
    provisions to ensure the    to ensure that Authentication Services are correctly implemented and
    quality of security         sustained. From CISO governance considerations, there are ongoing
    configuration on the        activities to allow enterprise service offerings to provide clearer
    systems.”                   guidance on the specifics of the services provided (specifically on the
                                NIST 800-53 controls) and the requirements for systems to interconnect
                                to the enterprise service. It is expected the AppAuth will be a prime
                                example of this Enterprise Security Service Agreement in lieu of multi­
                                party ISAs.

                                OIG: We revised the report to note that there is no governance in
                                place to verify the security of controls on component systems that
                                connect to headquarters.
4   P. 2, first paragraph,      Active Directory provides authentication services. It is used by systems
    “Active Directory allows    to facilitate patching and software delivery, but does not do these items
    system administrators to    itself.
    assign security policies,
    deploy software, and
    apply critical software     OIG: We revised the report to clarify that “Active Directory
    updates to the              provides authentication services on a network,” and “it allows
    organization’s Windows      system administrators to assign security policies, deploy software,
    servers and                 and apply critical software updates to the organization’s Windows
    workstations.”              servers and workstations.”
5   P. 2, second paragraph,     The performance of network operations is separate and distinct from the
    “Across the department,     management of Active Directory. Active Directory Policies and
    Active Directory has been   Services are managed by the Components in a federated model.
    implemented under a         Federation is actually Microsoft's Best Practice approach to diversified
    federated model where       organizations' use of Active Directory. However, DHS would like to
    policy and guidance are     improve the governance of the group policies and management of these
    centrally promulgated,      federated active directories.
    but each component is
    responsible for its own
    network operations.”        OIG: No change.
6   P. 2, Figure 1, “DHS’       A blue triangle should be added for LAN-A (DHSnet), which is the
    Headquarters Active         Headquarters Active Directory domain, and the yellow triangle should
    Directory Connections”      read Enterprise Authentication (AppAuth).

                                OIG: No change.
7   P. 2, Figure 1, “DHS’       Currently, there are 10 domains that AppAuth integrates. FLETC should
    Headquarters Active         be included as well. Also please note that TSA includes the Federal Air
    Directory Connections”      Marshal Service and Federal Flight Deck Officer program.

                                OIG: No change. In December 2009, OCIO identified 10
                                components with trusts in place with Headquarters. FLETC was
                                not included in the 10 identified. Additionally, no change was made
                                regarding the Federal Air Marshal Service and Federal Flight Deck
                                Officer since they are programs under TSA.
8   P. 3, second paragraph,     Office Communication Service (OCS) was deployed in AppAuth. There
    “…DHS recently              was an element of the enterprise OCS deployment that also required the
    deployed Microsoft Office   Component controlled AD domains to perform concurrent activities to
    Communications Server       assure proper operation.
    (OCS) on its headquarters
    domain. Users throughout
                     Stronger Security Controls Needed on Active Directory Systems 


                                                Page 12 

Appendix B
Management Comments to the Draft Report


    the department access
    OCS for virtual
    conferencing and
    collaboration.”            OIG: No change.
9   P. 5, first paragraph,     The sentence is not accurate. As part of the existing ISA, pursuant to
    "Moreover, DHS does not    DHS 4300A policies and as controlled by the ICCB, all systems that
    ensure that trusted        interconnect with AppAuth must have an ATO, and each system must
    systems meet information   have an ISSO who is personally responsible that the systems meet the
    security requirements      security requirements and who provides assurance on the change that
    before allowing            connects the application to AppAuth.
    connectivity to its
    network. "                 OIG: No change. While we acknowledge that DHS policy
                               designates an ISSO as responsible for system security requirements,
                               we maintain that there is no governance in place for OCIO to verify
                               the security of controls on component systems that connect to
                               headquarters.




                    Stronger Security Controls Needed on Active Directory Systems 


                                               Page 13 

Appendix C
Major Contributors to This Report

                    Information Security Audit Division

                    Edward Coleman, Director
                    Chiu-Tong Tsang, Director
                    Mike Horton, Information Technology Officer
                    Amanda Strickler, Information Technology Specialist
                    Frederick Shappee, Referencer




                 Stronger Security Controls Needed on Active Directory Systems 


                                            Page 14 

                                 FOR OFFICIAL USE ONLY

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      CIO
                      Deputy CIO
                      Chief Information Security Officer
                      Director, Compliance and Oversight
                      Director, GAO/OIG Liaison Office
                      CIO Audit Liaison
                      Chief Information Security Officer Audit Manager

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Stronger Security Controls Needed on Active Directory Systems 


                                            Page 15 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
